Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
Learn About
Us
Meet
OIG Senior Staff
Report
Fraud
Apply
for a Job
Visit
our Library
FAQs
Contact
Us
Fugitive
Felon Program
Links
of Interest
Site
Map
Español
OIG Home
Audit
Report - A-13-97-92002
Office
of Audit
Study of the Social Security Administrations
Operating Procedures Referencing Fraud - A-13-97-92002 - 6/23/97
TABLE OF CONTENTS
INTRODUCTION
FINDINGS
SSA`s
POMS Contain Numerous References to Fraud
SSA`s
POMS References to Fraud May Not Be Current or Appropriate
RECOMMENDATIONS
APPENDICES
Appendix A - POMS CD-ROM
Appendix E - List of Contributors
INTRODUCTION
PURPOSE
To identify the incidence of references to fraud in the Social Security
Administration`s (SSA) procedures and to test those references
to determine whether they are current, correct, and consistent.
BACKGROUND
There are four data bases on SSA`s CD-ROM prototype system commonly
referred to as the Program Operations Manual System (POMS) CD-ROM.
They are POMS, the Modernized Systems Operations Manual (MSOM), the
Social Security Handbook, and the Social Security Rulings. The POMS
CD-ROM is available to SSA staff on SSAs intelligent work station/local
area network. The discussion that follows focuses only on POMS.
SSA`s POMS
POMS contains SSA`s operating policies and procedures for administering
its programs. It is the single repository of all operational information
whether issued by central office, a program service center, or a
regional office. As such, POMS not only contains operating procedures
and policies for administering SSA`s programs, but is also replete
with procedures for handling situations where fraud is suspected
or detected. POMS procedures are SSA staffs` source of guidance
for recognizing, developing, and referring suspected fraud cases
to the Office of the Inspector General (OIG).
POMS is divided into 12 parts with each part containing information
about a subject area relating to SSA programs, systems, or operations.
There are 220 chapters, 1565 subchapters, and 26,822 sections
in POMS.
POMS procedures are written by components with expertise in specific
program areas. For example, POMS RM 00205.000, Resolving Social Security
Number Problems, is written by staff in the Division of Entitlement
under the Office of Program Benefits Policy. The Division of Directives
Management has responsibility for the preliminary and final review
of the procedures. Further, in the Division of Directives Management,
the Instructions Policy and Technology Branch has responsibility
for the POMS CD-ROM.
OIG`s Mission
OIG`s mission is to improve SSA`s programs and operations
and protect them against fraud, waste, and abuse. The effectiveness
of OIG in accomplishing this mission is dependent, in part, on the
procedural guidance provided to SSA staff on the identification and
referral of fraud to OIG. Especially important to OIG`s investigation
of fraud are POMS procedures containing sensitive instructions on
detecting and reporting violations.
METHODOLOGY
The POMS CD-ROM was utilized to identify all POMS references to
fraud. The Search Option on the CD-ROM was used to change the maximum
amount of occurrences (100) that the system could identify. A summary
list of all "fraud" references was printed and a sample
of procedures was selected for review to determine if the procedures
were current, correct, and consistent.
Further information on the use of the CD-ROM to identify POMS references
to fraud is found in Appendix A.
Back to top
FINDINGS
SSA`s
POMS Contain Numerous References to Fraud
SSA`s POMS procedures contain 334 references to fraud. Many
of these procedures may not have been reviewed for accuracy or appropriateness
since SSA became an independent Agency. A summary list of all references
to fraud is found in Appendix B.
SSA`s
POMS References to Fraud May Not Be Current or Appropriate
A review of a sample of the references to fraud revealed that the
procedures may not be current or appropriate. The following are several
examples:
POMS GN 02401.910 B 2 states, "If the case meets 1 above
the PC/FCAB/FO will call the servicing OIG office as reflected
in GN 04124.010.... POMS GN 04124.010 provides the addresses
and telephone phone numbers of OIG`s Office of Investigations
field offices. The addresses and phone numbers need to be updated
to reflect the current information for these offices." (Note:
SSA has revised the above procedure since our review of the POMS
references to fraud.)
POMS GN 04020.010 D 3(b) states, "Place a flag ... on the
left side of the folder stating that, after all adjudicative actions
the case should be routed to the Integrity Branch to determine
if it meets criteria for submittal to Health and Human Services,
Office of the Inspector General, Office of Investigations Field
Office."
POMS GN 04110.010 B 3 has not been revised to reflect that OIG
has rescinded guidelines published in January 1994 under the direction
of the Department of Health and Human Services which instruct that
only certain fraud cases meeting a monetary limit be referred to
OIG. POMS procedure directs field office staff to curtail fraud
development where the amount of loss to the Government is $2,500
or less.
Back to top
RECOMMENDATIONS
We recommend that:
1. Appropriate Staff From OIG and SSA Should Work Together to
Revise Procedures
Our preliminary review indicates the need for a comprehensive
review of all references. It is unlikely that this has been done
since SSA became an independent Agency and is especially important
now in order to ensure appropriate identification, development,
and referral procedures and practices. We suggest a joint effort
to revise procedures that are no longer considered appropriate.
The starting point for this effort should be a review of the POMS
sensitive instructions on Violations/Fraud that were co-authored
by SSA and OIG.
2. A Similar Approach Could Be Used to Identify References to
Fraud in the Social Security Handbook and MSOM
After completing the review of POMS procedures, a similar review
should be conducted of all references to fraud in the Social Security
Handbook and MSOM. While the incidence of references to fraud in
these resources is not as great as in POMS, a review will ensure
that all policies and procedures accessible on the CD-ROM are uniform.
AGENCY COMMENTS
The Agency agreed that the procedural references to fraud need
to be updated and indicated that the SSAs Combating Fraud
Tactical Plan specifically addresses these procedures. A workgroup
comprised of OIG and SSA representatives is to be formed to review
current POMS fraud references and modify procedures where appropriate.
The Agency commented that after it has completed its review of
the POMS procedures, it will determine what action is needed in
regard to the MSOM procedures.
Back to top
APPENDICES
APPENDIX A
POMS CD-ROM
The Program Operations Manual System (POMS) CD-ROM is comprised
of four data bases that contain the Social Security Administration`s
(SSA) policy and procedures. The CD-ROM is designed to allow the
user to have on-line access to one, several, or all of the following
data bases: POMS, the Modernized Systems Operations Manual (MSOM),
the Social Security Handbook, and the Social Security Rulings. The
CD-ROM is available on SSAs intelligent work station/local
area network.
POMS contains SSA`s policy and procedures for entitlement and
payment of benefits. MSOM provides information on the many systems
modernization projects, procedures for users working with the modernized
systems, and updates on the various modernized systems projects.
The Social Security Handbook summarizes information about the Social
Security programs. It is designed to be an easy-to-understand reference
tool for the very complex Social Security programs. The Social Security
Rulings are a series of judicial decisions relating to Old-Age, Survivors
and Disability Insurance, Supplemental Security Income, and Black
Lung programs.
A menu screen allows access to these data bases (see Figure 1).
Figure 1
Social Security Administration
CD-ROM Prototype System
TABLE OF CONTENTS SEARCH
Indes Search
POMS Section Number
(e.g. RM 00203.001, or RM*)
MSOM Page Number
(e.g. 3-A-1)
FULL TEXT SEARCH
Word or phrase
And
And
And
But Not
Search Options Database Selection
The top of the screen allows the user a choice of utilizing a Table
of Contents or Index function to locate desired information. The
user can utilize the arrow key(s) to highlight Table of Contents,
then press enter to obtain the names of the four data bases that
are available. The arrow keys can also be used to obtain further
information on each data base. For example, highlighting POMS and
then pressing the enter key will provide the user with the various
parts of POMS. The parts of POMS are;
Part 1 RM Records Maintenance
Part 2 GN General
Part 3 RS Retirement and Survivors
Part 4 DI Disability Insurance
Part 5 SI Supplemental Security Income
Part 6 HI Health Insurance
Part 7 TE Telecommunications
Part 8 SM Systems and Methods
Part 9 NL Correspondence and Notices
Part 10 OS Operational Support
Part 11 DG Digest
Part 12 PM Program Management
Similarly, the Index Search is accessed by highlighting this area
of the screen and pressing enter. A sub menu appears that provides
the user with a choice of a Comprehensive Index, Forms-Numeric Listing,
Forms-Alphabetic Listing, Forms-Other Agencies, or MSOM Page Index.
The Comprehensive Index allows the user to view a list of Social
Security topics arranged in alphabetical order. To illustrate, the
Index would show Aliens, Annual Reports, Appeals ... etc. The forms entries
allow the user to obtain information on a variety of forms utilized
by SSA and other agencies, and the MSOM page index provides page
numbers with references to the material contained on those pages.
Below the Table of Contents and Index are spaces to enter POMS sections
or an MSOM page number. If the users have knowledge of a particular
section of POMS or an MSOM page number needed for their review, they
would enter the information in the appropriate space and press enter.
The system would locate the reference and indicate at the bottom
of the screen to press F1 for the next document or F10 for a summary.
A printout of the procedure can be produced by pressing the ALT and
P keys.
The Full Text sections allows the user to key a word or phrase (e.g.,
fraud) and, by pressing the enter key, the system will scan the data
base(s) for all references where the phrase "fraud" is
used. A message will appear at the bottom of the screen to alert
the user to the number of times the phrase was located. The system
will display up to the first 100 occurrences unless the user
changes the Search option as described below. To view a summary list
of all occurrences, the user needs to press the F10 function key.
The bottom portion of the menu screen contains Search Options or
Data Base functions. Highlighting the Search Option and pressing
enter will produce a screen that is titled Number of Documents. This
screen can be utilized to change the maximum number of occurrences
from 100 to a larger number. The user may want to use this option
if they are searching for all occurrences of a common phrase (e.g.,
fraud which had 334 references on the summary list). The Data Base
selection function is used to indicate the names of the data bases
to be searched. Any or all of the data bases listed above can be
selected depending on the users need.
Back to top
APPENDIX
E
LIST OF CONTRIBUTORS
This inspection report was prepared by the Office of Audit in SSA
headquarters under the direction of Scott Patterson, Director, Division
of Evaluations and Technical Services. Project staff included:
Evan Buckingham, Senior Evaluator
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified